                       U.S. Department of Agriculture

                          Office of Inspector General
                           Financial & IT Operations




            Audit Report

Office of the Chief Information Officer –
    Management and Security Over
Information Technology Convergence –
   Common Computing Environment




                              Report No. 50501-3-FM
                                      October 2005
                      UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL


                                        Washington DC 20250


October 24, 2005



REPLY TO
ATTN OF:       50501-3-FM

TO:            David Combs
               Acting Chief Information Officer
               Office of the Chief Information Officer

THRU:          Sherry Linkins
               Office of the Chief Information Officer
               Information Resources Management

FROM:          Robert W. Young       /s/ Tracy LaPoint (for)
               Assistant Inspector General
                for Audit

SUBJECT:       Office of Chief Information Officer - Management and Security Over Information
               Technology Convergence –Common Computing Environment


This report presents the results of our audit of the management and security over information
technology convergence common computing environment. The report identified weaknesses in the
Office of the Chief Information Officer (OCIO) - Information Technology Services’ (ITS) ability
to effectively manage and secure information technology. OCIO-ITS has reportedly taken
significant actions to address the weaknesses we identified.

Your response to our draft report is included in its entirety in exhibit B, with excerpts incorporated in
the Findings and Recommendations section of the report. Based on the information provided in the
response, we have reached management decision for Recommendations 3, 5, 6, 7, 8, 10, 11, 12, 15,
16, 17, and 18. Please follow your internal procedures in forwarding documentation of final action
to the Office of the Chief Financial Officer. For Recommendations 1, 2, 4, 9, 13, and 14, additional
actions are needed to reach management decision.                 OCIO-ITS did not respond to the
recommendations as presented and needs to provide additional information to reach management
decision. Please refer to the OIG Position sections of the report for specific details.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of the
outstanding recommendations noted above. Please note that the regulation requires management
decision to be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us during the audit.
